DOE/IG-0422




         AUDIT
        REPORT                 THE U.S. DEPARTMENT OF ENERGY’S
                                      PARTICIPATION IN THE
                                    PARTNERSHIP FOR A NEW
                                         GENERATION OF
                                      VEHICLES PROGRAM




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL                   July 1998
   OFFICE OF AUDIT SERVICES
                                                 July 21, 1998


MEMORANDUM FOR THE ACTING SECRETARY

FROM:          Gregory H. Friedman
               Acting Inspector General

SUBJECT:       INFORMATION: Audit Report on "The U.S. Department of Energy's
               Participation in the Partnership for a New Generation of Vehicles"


BACKGROUND

The Federal Government and the United States Council for Automotive Research (USCAR), representing
Chrysler, Ford, and General Motors, entered into a Partnership for a New Generation of Vehicles (PNGV).
The aim of the partnership was to apply joint resources to develop and implement advanced technologies for
a new vehicle. The partnership had three specific, interrelated technological goals and an aggressive
timetable for developing the new generation of vehicles. We conducted this audit to determine whether the
Department's research projects support the goals of the PNGV program.

RESULTS OF AUDIT

Although the research projects being pursued by the Department contributed to the goals of the PNGV pro-
gram, it was unlikely that some of the technologies would be fully developed in time to meet the PNGV
timeframe of 2004. Specifically, fuel cells and CIDI engine research had a low probability of being devel-
oped by 2004 because of the technological barriers in achieving established reliability, cost, or emission crite-
ria. The Government and industry jointly identified technology areas in which advancements were needed to
meet the PNGV goals. Work on these various technologies was to continue until the end of 1997 when its
focus was to be narrowed down. In January 1998, the partnership selected the most promising technologies
and it was announced that the Government would focus on longer-term research and development efforts.
The USCAR would continue on high-mileage concept vehicles to debut in 2000 followed by production pro-
totypes in 2004.

MANAGEMENT REACTION

Management concurred with the report.

Attachment

cc: Deputy Secretary
    Under Secretary
DEPARTMENT OF ENERGY'S PARTICIPATION IN THE
PARTNERSHIP FOR A NEW GENERATION OF VEHICLES PROGRAM


TABLE OF
CONTENTS

                 Overview

                 Introduction and Objective ........................................................ 1

                 Background ............................................................................... 1


                 DOE’s Participation in the PNGV Program

                 Audit Results .............................. ............................................... 2

                 Suggested Actions ...................................................................... 5


                 Appendices

                 Scope and Methodology ............................................................. 6

                 Past Studies and Reviews ............................................................ 7
Overview

INTRODUCTION AND   The Federal Government and the United States Council for Automotive
OBJECTIVE          Research (USCAR), representing Chrysler, Ford, and General Motors,
                   entered into a Partnership for a New Generation of Vehicles (PNGV).
                   The agreement to develop and implement advanced technologies for a
                   new vehicle was set forth in a Declaration of Intent between the White
                   House and USCAR in September 1993. The aim of the partnership was
                   to apply joint resources to meet specific goals that provide benefits to
                   the partners and the Nation. Government funding for the PNGV was to
                   be applied primarily to develop technologies that involve high risk and
                   USCAR funding would be greater for technologies with a clear, near-
                   term market potential. The purpose of the audit was to determine
                   whether the Department's research projects support the goals of the
                   PNGV program.


BACKGROUND         The Declaration of Intent was the beginning of a new era where,
                   through a partnership, USCAR and the Government declared their
                   separate but coordinated plans toward the achievement of specific goals
                   for clean and efficient cars. The partnership has three specific,
                   interrelated technological goals:

                   • Significantly improve national competitiveness in manufacturing.

                   • Implement commercially viable innovation from ongoing research on
                     conventional vehicles.

                   • Develop a vehicle to achieve up to 3 times the fuel efficiency of today's
                     comparable vehicle.

                   In addition, there was an aggressive timetable for developing the new
                   generation of vehicles. By the end of 1997, the focus of technology
                   development was to be narrowed down to only those that had become
                   sufficiently developed and demonstrated adequate progress that met
                   PNGV vehicle requirements. Furthermore, the auto partners were to
                   develop concept vehicles in order to evaluate the engineering feasibility
                   of incorporating these potential technologies into total vehicle systems.
                   As the concept vehicles were further developed the auto partners were
                   to incorporate them into production prototype vehicles. According to
                   the timetable, the partnership was to develop a concept vehicle by 2000
                   and a production prototype by 2004.

                   Although the PNGV is a partnership of seven Government agencies and
                   the three USCAR partners, there is no line management structure or
                   budgetary authority to control projects by different agencies that may

Page 1                                                           The Partnership for a New
                                                                    Generation of Vehicles
Department of Energy's Participation in the Partnership for a New
Generation of Vehicles Program

                      have different missions. The Department has provided most of the
                      federal funding but the Department of Commerce was designated as the
                      lead agency for the program. In Fiscal Year 1998, the Department's
                      budget for PNGV was about $123 million. Most of this amount was
                      provided by the Office of Energy Efficiency and Renewable Energy.

                      To assist in the development and management of the PNGV program,
                      the National Research Council (Council), an independent panel created
                      by the National Academy of Sciences to advise the Government on
                      scientific and technical matters, was asked to set up a peer review
                      process to comment on the technologies selected for research and its
                      progress. Annual peer reviews of the program were made in 1994,
                      1996, 1997, and 1998. The results were published and included
                      observations and recommendations concerning the progress and status
                      of technical PNGV research projects as well as the overall partnership.


AUDIT RESULTS         Although the research projects being pursued by the Department
                      contributed to the goals of the PNGV program, it was unlikely that
                      some of the technologies would be developed in time to meet the PNGV
                      timeframe of 2004. Specifically, fuel cells and compression-ignition
                      direct injection (CIDI) engine research had a low probability of being
                      developed by 2004 because of the technological barriers in achieving
                      established reliability, cost, or emission criteria.

                      From the outset of the PNGV program, the Department pursued several
                      technologies that had varying levels of potential for successful
                      development. Traditional research of the Department such as gas
                      turbine engines, Stirling engines, flywheels, fuel cells, direct-injection
                      engines, and lightweight materials were merged into the PNGV
                      program. During 1994, the Government and industry jointly identified
                      technology areas in which advancements were needed to meet the
                      PNGV goals and various technologies that were to be developed
                      concurrently. Work on these various technologies was to continue until
                      the end of 1997 when its focus was to be narrowed down.

                                              Annual Peer Reviews

                      The first peer review was a broad overview in coverage and perspective.
                      It was recommended that an analysis be made in 1994 to divide all
                      technologies into two categories: current PNGV and post-PNGV
                      technologies. The current technologies would include all technologies
                      that had a high probability of demonstrating PNGV system applicability


Page 2                                                            The Partnership for a New
                                                                     Generation of Vehicles
Department of Energy's Participation in the Partnership for a New
Generation of Vehicles Program

                      and performance by 1997. Post-PNGV technologies would be those
                      that supported the PNGV goals but would not be developed within the
                      established timeframe. The Council also recommended that these
                      longer-term technologies be funded and continued in development for
                      post-PNGV applications.

                      The second and third peer reviews included evaluations of the ongoing
                      research to the PNGV goals and schedule. The Council concluded
                      "...despite significant progress in a number of critical areas, there
                      continued to be a wide gulf between the current status of system and
                      subsystem development and the performance and cost requirements
                      necessary to meet major PNGV milestones." The Council believed that
                      some of the barriers could be overcome with sufficient funding and
                      management attention, while others would require inventions and
                      significant technical breakthroughs.

                                      Partnership Technology Selection

                      In January 1998, the PNGV completed its selection of technologies
                      considered to be the most promising for achieving the ambitious goals of
                      the partnership. It was announced that the Federal Government would
                      focus on longer-term research and development efforts in four key
                      system areas: fuel cells, hybrid-electric vehicle drives, direct-injection
                      engines, and lightweight materials. The USCAR would continue working on
                      high-mileage concept vehicles to debut in 2000, followed by
                      production prototypes. The Government partners and their laboratories
                      would continue to participate in high risk research to advance
                      critical enabling technologies for possible use in these vehicles.

                                        Pursuit of Long-Term Research

                      In the latest peer review, dated April 1998, the Council stated that
                      separate concept demonstration vehicles (by 2000) and production
                      prototypes (by 2004) would be built by USCAR without significant
                      Government participation. However, the Council noted that the
                      Government can and should support the development of long-term
                      technologies that are likely to be incorporated in subsequent concept
                      vehicles. It was recommended that the Government should significantly
                      expand its support for the development of long-term PNGV
                      technologies that have the potential to improve fuel economy, lower
                      emissions, and be commercially viable.




Page 3                                                         The Partnership for a New
                                                                  Generation of Vehicles
Department of Energy's Participation in the Partnership for a New
Generation of Vehicles Program

                      In addition to the annual peer reviews, the President's Committee of
                      Advisors on Science and Technology (PCAST) recommended, in its
                      November 1997, report that a second PNGV program be created. This
                      program would focus on longer-term technologies such as fuel cells
                      since the PNGV timeframe was too short to develop important medium
                      and long-term technologies.

                                       Meeting PNGV Timeframe of 2004

                      During the audit, responsible Department officials acknowledged that
                      fuel cell and CIDI engine research funded by the Department would not
                      be fully developed to meet the PNGV timeframe of 2004. However,
                      officials stated it was the partnership's decision to pursue short and long-
                      term research that showed the most promise for concept vehicles.

                      In the Council's 1998 report, it was acknowledged that fuel cells had the
                      best long-term potential for automotive energy converters with high
                      efficiency and low emissions and that impressive progress had been
                      made in fuel cell research. However, fuel cells still faced substantial
                      obstacles in meeting performance and cost goals within the 2000 to
                      2004 timeframe. It was also noted that excellent progress had been
                      made in the development of CIDI engines; however, there were still
                      significant challenges. The challenges included reducing the emissions
                      of nitrogen oxides (NOx) and particulates, reducing the weight of the
                      power plant, and reducing costs. Regardless, the Council concluded
                      that the CIDI engine had the potential for the highest fuel conversion
                      efficiency.

                                  Alignment of PNGV and Department Goals

                      The Department's 1997 Strategic Plan included a strategy in the Energy
                      Resources business line to cover the research contributions to the PNGV
                      program. Also, the Department's Annual Performance Plan for Fiscal
                      Year 1999 included an objective to cover the PNGV research efforts.
                      The strategy and objective, the same in both plans, was to "develop and
                      deploy vehicles, fuels, and systems of the future, contributing
                      significantly to the PNGV to develop, by 2004, prototype mid-sized cars
                      capable of 80 miles per gallon that will reduce NOx and CO2 emissions
                      by two-thirds compared to today's new car average without
                      compromising safety, comfort, and cost." However, neither plan
                      explicitly addressed the ongoing, long-term research at the Department
                      in support of the PNGV program such as fuel cells and CIDI engines.




Page 4                                                             The Partnership for a New
                                                                      Generation of Vehicles
Department of Energy's Participation in the Partnership for a New
Generation of Vehicles Program

SUGGESTED ACTIONS     To bring the Department's promising but long-term research into
                      alignment with PNGV goals, we suggest that the Assistant Secretary for
                      Energy Efficiency and Renewable Energy:

                      1. Work with the PNGV partners to facilitate establishing goals for the
                         development of both short and long-term technologies. The
                         possibility for a post-PNGV should be considered that would focus
                         on mid- and long-term technologies. This would help to strengthen
                         the overall needs of the program to bring efficient, clean vehicles to
                         market.

                      2. Modify the Department's Strategic Plan and the objective in the FY
                         1999 Annual Performance Plan to explicitly address the ongoing
                         long-term research efforts in support of the PNGV program. In
                         addition, the Annual Performance Report should address the barriers
                         encountered in meeting the PNGV timeframe of 2004.




                                                                  /s/
                                                            Office of Inspector General




Page 5                                                           The Partnership for a New
                                                                    Generation of Vehicles
Appendix A

SCOPE AND     The audit was performed between August 1997 and June 1998.
METHODOLOGY   Although the PNGV program involves several Federal agencies, we
              limited our review to the Department's participation and role in the
              program. We focused on evaluating how the Department's research
              would support the goals of the program. Due to the relative size of
              the Office of Energy Research's participation in the program, it was
              not included as part of the audit effort.

              To accomplish our objective, we obtained and reviewed
              laws and regulations applicable to the PNGV program. In addition,
              we reviewed related reports issued by the Office of Inspector General,
              the General Accounting Office, and various advisory groups. We also
              reviewed the agreements and goals formulated between USCAR and
              the Federal Government. Discussions were held with Department
              officials from the offices of Energy Efficiency and Renewable Energy
              and Defense Programs. These discussions covered the Department's
              participation in the program, budget information, project selection
              process, progress made to date, and the potential for project
              completion within program timeframes. Discussions were also held
              with the individual responsible for PNGV budgeting and general
              matters at the Office of Management and Budget. We met with the
              PNGV coordinators and staff officials from General Motors and
              Chrysler Corporations to discuss their experiences concerning the
              Department's participation in the Program.

              Site visits were made to Argonne, Los Alamos, and Sandia National
              Laboratories located in New Mexico and California and the National
              Renewable Energy Laboratory located in Colorado to discuss various
              current research projects and program work. We also reviewed the
              Department's 1997 Strategic Plan to determine whether performance
              measures had been developed that related to the PNGV program.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed internal controls regarding the selection of research and
              development projects by the Department. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed. We did not rely on computer-
              processed data to accomplish our audit objective.




Page 6                                                 The Partnership for a New
                                                          Generation of Vehicles
Appendix B

             Past studies and audits relating to the PNGV program:

             •Congressional Research Service: Report for Congress: The
              Partnership for a New Generation of Vehicles (PNGV), dated
              February 1996. This report provided an overview of the
              PNGV program, including opposing viewpoints on its validity
              as a Federal function. No findings or recommendations were
              included in the report.

             •Review of the Research Program of the Partnership for a
              New Generation of Vehicles, First Report, by the National
              Research Council, dated 1994. The report recommended
              adopting an appropriate strategy to categorize the different
              technologies related to goal 3 and divide them into two cate-
              gories: current PNGV and post-PNGV. It reported that the
              current organizational structure was inadequate to perform
              the program management function required for a complex
              program such as PNGV.

             •Review of the Research Program of the Partnership for a
              New Generation of Vehicles, Second Report, by the National
              Research Council, dated 1996. The report stated that al-
              though a number of significant achievements had been made,
              there were still formidable barriers to meeting the program
              goals within the PNGV schedule. It was observed that, given
              the limitations on existing resources, the technology program
              must be focused if PNGV performance, cost, and schedule
              objectives were to be met.

             •Review of the Research Program of the Partnership for a
              New Generation of Vehicles, Third Report, by the National
              Research Council, dated 1997. The report recommended a
              comprehensive assessment of the PNGV program regarding
              its competitive position in the world market to adjust its pri-
              orities and resources more efficiently. The report also recom-
              mended developing a schedule of funding and resource re-
              quirements for each technology by realistically evaluating
              their potentials.

             •Review of the Research Program of the Partnership for a
              New Generation of Vehicles, Fourth Report, by the National
              Research Council, dated 1998. The report recommended
              that the government expand its support for the development


Page 7                                         The Partnership for a New
                                                  Generation of Vehicles
         of long-term PNGV technologies that have the potential to
         improve fuel economy, lower emissions, and be commercially
         viable.

         •NRC Committee on Advanced Automotive Technologies
         Plan: Review of the Research and Development Plan for the
         Office of Advanced Automotive Technologies (OAAT), Pre-
         publication Draft, dated December 1997. OAAT had
         established a development plan for 1997 through 2001 and
         requested that NRC conduct an independent review of the
         plan. NRC encouraged the use of industry partnerships, but
         recommended that OAAT only enter research partnerships that
         industry would not normally undertake solely.

         •Electric Vehicles, GAO Report Number RCED-95-234,
         dated August 1995. This report addressed the Department's
         role in managing its U.S. Advanced Battery Consortium and
         stated that the Department had played an active and extensive
         role in managing the program. However, GAO stated the
         Department had not adequately responded to a 1993 "Lessons
         Learned" document.

         •Office of Technology Assessment: Advanced Automotive
         Technology: Visions of a Super-Efficient Family Car, dated
         September 1995. This report originated from requests by
         House Committees on Commerce and Science and Senate
         Committees on Energy and Natural Resources and on
         Governmental Affairs. The potential for "breakthrough"
         technologies to dramatically improve fuel economies of light
         duty vehicles was examined. It was determined that achieving
         triple the current fuel economy averages by 2015 was realistic,
         but will be a more difficult challenge at a commercially viable
         price.

         •Federal Energy Research and Development for the
         Challenges of the Twenty-First Century, Report of the Energy
         Research and Development Panel, The President's Committee
         of Advisors on Science and Technology, dated November
         1997. This report stated that PNGV has been successful in
         some regards, but needs some adjustment if it is to fulfill its
         potential to create public benefits. The PNGV time line is too
         short and filled with too many interim deadlines to effectively
         develop important medium and long-term technologies. In
         addition, the PNGV program is insufficiently funded,
         increasing the risk of not meeting its goals.

Page 8                                     The Partnership for a New
                                              Generation of Vehicles
         Past Office of Inspector General Audits of Departmental Re-
         search and Development Activities:

         •Audit of the Department of Energy's Scientific and Techni-
         cal Information Process, Office of Inspector General Report
         Number DOE/IG-0407, dated June 1997. This report dis-
         closed that the scientific and technical information generated
         by management and operating contractors was not managed
         on a life-cycle basis.

         •Audit Report on the Department of Energy's Peer Review
         Practices, Office of Inspector General Report Number DOE/
         IG-0419, dated April 1998. This report concluded that peer
         review programs had been established to manage various re-
         search and development activities at the Department's National
         Renewable Energy Laboratory and the Pacific Northwest and
         Los Alamos Laboratories. Peer reviews were conducted prior
         to competitive award of subcontracts, selection of projects
         from research proposals, and inclusion in scientific journals
         and/or conferences.

         •Audit of the Department of Energy's Management of Re-
         search and Development Integration, Office of Inspector Gen-
         eral Report Number DOE/IG-0417, dated March 13, 1998.
         The audit disclosed that the Department did not have a sys-
         tematic process in place to facilitate the integration of R&D
         projects because organizational responsibility and authority
         had not been clearly established.




Page 9                                     The Partnership for a New
                                              Generation of Vehicles
                                                                                IG Report No. DOE/IG-0422

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to en-
hance the effectiveness of future reports. Please include answers to the following questions if they are appli-
cable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the au-
   dit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________             Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                         ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the follow-
                                            ing alternative address:


                  Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

                      Your comments would be appreciated and can be provided on the
                             Customer Response Form attached to the report.

                                      This report can be obtained from the
                                          U.S. Department of Energy
                                 Office of Scientific and Technical Information
                                                  P.O. Box 62
                                         Oak Ridge, Tennessee 37831
